O) A.
Nn<J

SJ
Supreme Court, U.S.
FILED

AUG 1 5 2021
IN THE

OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES

JAMES

TAKchuAN WOO
(Your Name)

— PETITIONER

vs.
THE People

of the state of

Colorado — RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

COLORADO COURT OF APPEALS
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

J awes \\foo ,

DOC # I79T63 r pro se

------------------------- #---------------------------

(Your Name)
Centennial Correctional Facility
P.0. SOX

600

(Address)
Canon City, CO 8I2IC-0600
(City, State, Zip Code)
hl/A
(Phone Number)

QUESTION(S) PRESENTED

I.

Whether the Colorado (Court of Appeals erred m Concluding that Woo's

Constitutional rights to effective assistance of counsel and a fair Trial we<e not
Violated by the trial Court's denial of his Continuance requests based on the
prosecutions

JL.

discovery violations.

Whether the Court of Appeals erred in fondud;^ That the improper

admission of Testimony narrating

video ~surveillance footage as well as a timeline

summary of events allegedly depicted in the video was harmless and did not
deprive

Woo of his

M.

Whether the Court of Appeals

Constitutional
Courts

fight to a fair trial.

right against

unlawfoj

erred in Concluding that Woos

search

was not violated by the trial

denial of his motion % Suppfess evidence Seited after the unlawful

entry of

his storage unit

LIST OF PARTIES

i/\ All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES

*

The people of The State of Colorado V- James Jhkclway Woo, /Vo. 20/6 Cf?206%
district Courf of El Faso Countyj Colorado. TJjmenf entered February (?J 2018.

-

The People of The State of Colorado V. James Jdkchvan Woo, No. 20I8(A5$%
Colorado Court of Appea)s. Judgment entered November 25, 2020.
The People of the State of Colorado V. James Takchvovi Woo, No. 202jSC 8,
Colorado Supreme Court- Judgment entered

if

March 2% 2021.

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION

X

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

*

REASONS FOR GRANTING THE WRIT

B

CONCLUSION

27

INDEX TO APPENDICES
APPENDIX A

TBecisior) of Colorado Court of Appeals

APPENDIX B

Decision

of Colorado Suprem Court J)er)yio^ Review

APPENDIX C
APPENDIX D
APPENDIX E
APPENDIX F

111

CASES

PA<qE NUMBER

/Brigham Cih v. Stuart . 5f7 US. 318 f2000)
rlcMann y.

.

.

.

RicMson. 377 (/•$. 759 (iVo) .

.

.

•

-

Morris Y- Slapr/j 461 U*S. I 0?#3)

• . •

26
.

.

8

..8,1

Murray y. Just In Case Bus. Lighthouse, ILC. 374 P-Sd 443 (Colo. 20/6) /6,17
People

v. Allison. 86 P 3d 4*1 (Oh. 200$ ....

People

y. £rwn , 321 p.3d 2/4 fa/o. 20/0 ....

25
.

• 10, /)

f^ople y.

^«.rcia J

752 P.2d 570 (Colo. 1188) ....

.

. 2.2

People Y-

Harper,

702 P-2d §42 CcT°/o. 1995) ....

.

. 22

People

v. Hekrt.

46 p.3J 473 ^6Wo. 2002)

....

People

y, Hoganj

647 t?2d 326 (Volo. 19#2) .

.

People v. T<x>i.sen. 7/3 P.2d 707 (frl0. 1I82) .
People v.

kluhsman. no p.2j 527 (fo/o. Ml)

People Y. Lewis,

175 P23 Ho (C4o. II90

24

.
.

. 26
.

•

.

-

•

•

• 22

....

. 22, 2.4

.

McDonald , 15 P-3d 7$S fc>)o. /1pp. 2000) .

People v.

Meyers. 6/7 P-2d M (Vdo. /98o).........................

.

.8,1

people v.

Pappan, 425 P3d 273 ^6o/o. 20/#) .....

.

2/, 22

People y.

Po^erts.,

.

People y. tohles.
People v.

.

. /4

People y.

146 P3d 5g? (Colo. 2oo0

.

• 26

....

302 PSJ 269 (C*k App 20ll) ....

Qfuentes . 20/9 6o/\ J06

.....

.

.

.

• . 14
.

.

/o, il

~pepp/e v-'"'Sf'iiUn to tSd R#r-fco/zn~2tW2^ :

r

Feop/e V. Thompson, 20)7 COA 56

.

Peopje y. 7ravfr ,

.

.

-

T—ZF
It

2019 CO 15

10, II

, .

II

Gn ffls) . .

.

gj <J

Unify fates Y. Scales, 59f F.2d -555 (Gfe Or. 1979)' . .

.

Unijed States V- Cronic , 9-66 U>S. 69-9

,

United Sfcfes V- Moore, i59 F-3J IISt

United Sfe V- Stephen* , 779 F2d 233 f5#> Or. Ws) .

Wong SVn y.

United States, 37J U-S. *71 (>963) .

.

.

.

.

16

.

.

|6

.

.

22.

STATUTES ANP PULES
G>/o. Grim. P. Pt/ie /6 . .

10

Colo. Crm. P. Role 16 (u)(c)
Colo. ft. B/id. /U(96

.

.

.

I~&d. /?• Fvid- 1006

Jl

.

<3, /6j /7

.

*

0, 16

CONSTITUTIONAL AMENDMENTS
Colo- Const, art £ % 7

-

22

V-S• Const Amend. 1^ .

•

22

l ll R

U-S. Const- Amend. Vi

V

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[ ] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
E/l For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix A to the petition and is
[ ] reported at
; or,
[ has been designated for publication but is not yet reported; or,
E/j is unpublished.
The opinion of the _
appears at Appendix

court
to the petition and is

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

JURISDICTION
[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was______________________
[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date:____________
, and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including_______
(date) on
(date)
in Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

\/\ For cases from state courts:
The date on which the highest state court decided my case was M&rch 29, 2021
A copy of that decision appears at Appendix 3
[ ] A timely petition for rehearing was thereafter denied on the following date:
--------------------------------- , and a copy of the order denying rehearing
appears at Appendix
E/f An extension of time to file the petition for a writ of certiorari was granted
26, 2Q2)(date) on March 1% 2.0X0 (date) in
to and including
V ■
ORDER LIST: 5§? U-S-.
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

a.

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

Const A Fiend. A-

(Cife) in Issue UL, page 23)

Unreasonable Searches and Seizures
The righf of the people to he secure in their persons, houses s papers, and
effectsj against unreasonable Searches annd sei zures, shall not be violate<£ and
no Warrants shall issue^ hot upon probable Cause, Supported by Oath or
affirmation „ and particularly describing the place to he Searched} and the
persons or

U-S- Const- Aolend,
lights

of

things % he seized. 0

b

(cited in Issue Ij page

g)

the Accused
In all criminal prosecutions, the accused shall enjoy the righf to a speedy
and public Trial by an impartial jury of the Sfate <*nd district wherein The

Crime

shall have been Committed, which district shall have been previously

ascertained by hw, and to be

informed of the Mature <znd Cause of the

accusation ■ to be Confronted with the witnesses against him j fo have Compulsory
process for obtaining Witnesses in hh favor] and to have the Assistance of
Counsel for his defence. '

Fed. R. Evid.

1006

(cited in Issue 11^ page 16)

Summaries % Prove Content
*

■

The proponent may use a. summary, chart, or calculation to prove the content of
Voluminous Writings, recordings. or photographs that Cannot be Conveniently examined
in Court The proponent must mate the originals Or duplicates available for
Examination or Copying} or both, by other parties at a reasonable time and place.
.And the court may order the proponent to produce them in court. 0

3.

STATEMENT OF THE CASE
Woo and J-T- had been dating for three years and were both married to others
when they met. (jR I/25//S, pp 52-53; 2/1/p 36) J-T'j ft year oW Son, JXD., called the
police when J-J. was not home the morning of April 22, 10lb. (lR

pp 5H-S6, Cl-fa-

lllSjlti) pf> 71-75) Pojke Tracked one of J'ts Two phones Wilhin f6 meters of a Public Storagej
where they learned Woo had leased a unit■ (TR ijzsjlE, p^ 16-11-ijlb-j^, p 58-j) Police made
ft W&lTflrtless

entry intoWoos unit and found XT- deceased from gunshot wounds inside her

Vehicle. (jR

i/zs/lS, pp

j

is-I6j lOjfll-20J

*23:5-7)

Woo Was arrested j charged with first degree pn/rder, found guilty at trial, and
Sentenced jo life in prison without parole on February 6, 20I8. (Cf, pp 50, 8)S) Woo
Appealed on March 77, Z£>lS. (CFj p #55) On November 25, 2020, the Colorado Court of Appeals
affirmed Woo's Conviction. Case No. 20iECA58t. People v. Xaroes TaRchuon Wim, IT I. See
Appendi/ A-

The Colorado SupremeCourt denied review" on March

The three issues
Woo, Supra, at 7T7-

2% 2021. See /Appendix f-

raised in this petition Were raised in the Same order on appeal.

Woos defense attorneys (fCounse\Jy preserved the -first issue implicatin'}

the violation of the Sixth Amendment in Six written motions, a reply, and oral arguments in
which Counsel Consistently asserted he Could not provide effective assistance absent a. Continuance,
(rR 1/I6M pp l-a- I/2Z/I^PP 2-3j CF, pp 262,44-0,562,577, 5U 5o% 52l) Counsel preserved
1he second issue Concerning the admission of a written Summary and investigates testimony by
objection to both. (}K ihl/lS, pp 60-62) Counsel preserved the third issue Concerning warrantless
entry in violation of the Fourth Amendment by filing a motion To Suppress and oral arguments
at the motions hearing. (CF, p 76i-} TR 7/)4/)7 pp 45-(ft)

REASONS FOR GRANTING THE PETITION
I.

The Court of Appeals erred in concluding tint Woo'* constitutional

Hqhfe to effective assistance of counsel and a fair trial W€re not Wokfej by The
trigI Court's denial of his Confineance Fewest based on the prosecution's discovery
Violations.

A.

Facts

Woo v/as: charged an June 1$, 20/6 and Was represented by a public
defender- On February 10, 2017, Woo dismissed the public defender and retained a,
Miami attorney. ClK 2/20)7, p £:^"S) Local counsel entered on March 6, 2017 and
revested a. Contnv/once. (cp, pp *3)-%) The court reset the Trial fm May IS1^ f0
Augvst I0\ (JK 3jnli7, pp TS)
On Tune 3o_ 20I7, Counsel moved fora Second continuance based on the extensive
discovery and missing 3) hiA fa W data. (CF, fp 262'263) The Courf reset trial for
January 16, 201ff. flp 7/14/1-7, Pf /5-/?)
On November 30, 20)7, Counsel filed a third motion % Continue, Cifi,^ large
Volumes, of missing discovery, on extracted electronic devices of J-t-'s, and the lack of
response To subpoenas. (CFJ pp

At a, hearing on December I, 20)7, counsel

indicat’d that the sheriff s office would not finish downloading data from Seized Computers
Onfrl #)e end of the week, and the information was necessary for defense expert to
Submit reports and be prepared To testify. (7ft l7/ij)7, p 16'2-1*1) The Court responded,
VX let me preface it, this is the third trial SeTfr^ and I had fold the decedent
victims family that we were nof continuing this case again. Ifs been ongoing for
<2 year and a half-

ftP 12/07, P /6; 22-2S) 7be prosecutor Conceded the defense

5-

-had—Odt—feeehrej—all—edectronic—£>ddesxe.—flR I2j\fn., p /#: 7-25') Counsel indicated_____
tW defense had no data from any oh JT-'s devices, and that "there's a plethora
ohthings that need % he done

in preparation for trial outside of examining this

physical evidence. ’ [jR )2j}j 17, p 25: ]~l)
The Court denied the request, stating J J %ld Counsel the last time (on
Jjly If XO\t) that this would he the final trial setting J and I would not Continue it(JR

p 30'20-2l)
Counsel filed a motion to continue on December f 20)7 hosed on schedule

Conflict with a federal trial that would overlap with Woo’s trial. (CF, p f(pTg The Court
denied the motion as follows •'
*1 believe the court was Vely firm that this third trial setting Was
going % be the final one and that we were proceeding on January
)6ii)i So I Was a little hit awaked that (_,Counsel) is then giving the
Court a. number of other trial dates where he apparently would hare
a Conflict including this federal Case that he claims Was a SUa
Sporite changed by the judge without Conferring with Counsel. v
(m iiJbJHj p C- 1-tj cp p H7)
On December If 20/7, Counsel filed two renewed and amended motions h
Continue based on the prosecutions

discovery violations. (cfj pp ¥l7~t^i) At a hearing

on December 2ZJ 2017, Counsel indicated that the prosecution did not provide the data fm
J-T-’s devices until December )°ij seven days past the discovery deadline, (jt )zjzij\7j
p 6: Ihl 6) Furtherj the prosecution provided new DJVA and fingerprint jest fesults concerning
evidence that had been in its possession for a year and a half on December IT one day
past the discovery deadline. (tR )Zj22/jjj pp

6.

17-7:3,

•' I6~ig^ Counsel argued that there

was not enough 7iwe for Ruperts to review the Voluminous d4a given the discovery
Violation, (n Il}n/l7, f 7: 15-11)
The Court again denied the Motionsj stating y [tjkls court has keen very -firm
tf)4 we were keeping this third trial Setting . " (TR )7j22/]!, f >3:5-)2) 7k only
Concession flit Court Was Willing to mate was tb start the trial Six days Infer Oil
January 77, 201%. f"JK 1^27/n, p )3: i3df) Counsel accepted without waiving the
Continuance argument. (TR Rjzi/iTj pp )3-)£)
In January} Counsel -filed renewed and emergency motions to Continue based on
missing J)Nf\ Caw daft that the prosecution agreed to but failed to provide by January )?.
(CFJ pf 50°ij52~j) On January )% 201l, Counsel emphasized the importance of the raw data,
and indicated that he would he Unprepared for trial and ineffective without a continuance(jR 01/)#, p U’-lf~)7; ijlbjlSj p 11-5-7) The Court again denied These motions} noting that the
Case was "'going on two years old." (TR >/K>l>$ > P K: 15~lSj WjiS, pp 13-lh)
Just before jury selection , counsel renewed the motion to contme, indicating that the
proseed) on sjrll had not provided the $NA f«w data Critical to Vfoos defense - (tR

pp

X:2.^-3-h) Counsel indicated that the Current 3)NA experts backlog precluded her from
reviewing fie yet tb be provided T)NA discover^; making if necessary fo hire a new DpA
experf. (jK 1/21/;^ p 311-25) Jhe Court denied the request but granted a day between
jwj

Selection rind opening statements. (iK ifojiSj p 6- 6-if) The prosecution provided

the data after jury selection. f 77? >Mll ? 153:

7-

Law & /Wly^js

3L

Where The denial

of a motion far Confim/ance

of Counsel, a Const fvtioml error analysis

/o Ineffective assistance

is applied, under which the state must

demonstrate, beyond a reasonable doubt that The error was harmless. United States V- Cronic,
U6 US. 6HZ, 65% (W0.
The Sixth Amendment affords Criminal defendants the
Counsel..

VS. Const

of counsel .

amend. Vi.

right to the assistance of

The right to Counsel is ~lhe right to the effective assistance

fflcfflann y. Richardson , 3T1 0-S. 751, TV, n- If (S7o) Ifight % Counsel

encompasses a guarantee That defense Counsel shall have Sufficient time To Prepare for
S’diedofed
P-2d

proceedings and to protect his clients Constitutional rights. People v- Meyers, 617

808 (Coh. I^o)
A Court abuses its discretion when if appears, above all fo be determined not to

disturb [its] trial CcbedJe.'' United States V. Moore . ISff F..?d 115f, H60 (<fth C)r. mi). /in
Unrea^owio^ and arbitrary

insistence upon expeditious ness

in the face of a Justifiable

request -for delayJ v/o|cde_c the right % the assistance of Counsel.
T6I U-S. ) , II~I2 (fife)

Morris y. Slappyj

When foiosidefiry a motion % Continue, a court must look at

the totality of thd Circumstances, including any resulting prejudice - fecple y, Roberts, IH
p. 3d S&, 513 (Cdo. 2000.
The court prefaced the December 1, 20(7 hearing by stating that it had told the
■famdy of XT- that there would be
cl

no

further Continuances Since the case had been ongoing

year and a half. (TR s/ijltj p 16-22-25)

This admission, given at only Counsels third

8-

/W)t;pQ % c/mfinit-p . after only ninp months nf representation} and brf-nw anv Aicmvpvy

Violation occurred; reveals the primary basis for all Subsequent denials. Despite Counsels
Conflicting trial dates and the prosecution's discovery violationsj tie Court Would repeatedly
tnai/itain its position 1h4 if was firm in keeping the trial setting - (jft i^JSjlT f
fi/2V^7J p 13: 5~li) The Court repeatedly & Iffi fateJ Pie Ifi months to Two year a3? of The
Case tb retained Counsel, even though counsel had only fepresented Woo half that time cmd
received only eight months jVi Continuances■ (jf
The Courts decisions to deny Continuance

P /6- 27~2S ^ ijlljlti, fp I3~lf)
Were not in accord with the Colorado

Supreme Courts holding in Meyers , and were in Conflict with this Courts holding in Munir
at II~I2 ■

They were based on an unreasoning and arbitrary insistence upon expeditiousness

ift the face of counsels detailed justifiable requests.

The Court did not Consider any

prejudicial effect upon Woo in light of Counsels repeated assertion that he would be ineffective
wi)W Sufficient time to prepare, but only Considered The prejudicial effect upon tit
prosecution and C-J-’s family, despite the lack 0f any assertion of prejudice from the prosecution.
CfR ifa/iT p 13: 7-12 j nf/iij PP 2 2~3g)
The courf Considered, above all, its determination to not disturb its trial schedule, thus
abusing its discretion pursuant to Moore at H60. The court Was clear jf wouid not have
granted the requested continuance under any circumstance, thus falling to apply the totality of
Circumstances analysis with Consideration for resulting prejudice in accordance with Roberts at 533.
The

Courf of Appeals

found no abuse of discretion because the trial court

had already granted eight months in Continuance.

Woo, 'fTl6.

opined that the trial

Court ''considered the burden of another continuance on J.J.'s family and found That the

evidence that defense Counsel claimed he needed additional time to review had been
available to Defense -for a substantial period of time.

*»

Id.

This analysis is erroneous as it disregards the facts and extensive record made
hy Counsel and ignores the resulting prejudice to Woo. The discovery violations Concerned
large Volumes of T- T-'s electronic data and new T)NA and fingerprint Test results provided to
Defense less than 35 days before trial in violation of Colo. Crim. ?. fule 16, so these were
Certainly (]of available fo Defense for a Substantial period of Time ■ The raw d*fa foe the )*je
DM test results was not made available fo Defense until after jury selection , thus
precluding any Defense expert analysis until Trial.
The totality of the circumstances demonstrate that the trial courts ruling Was in
errorj and the Court of Appeals merely echoed the trial Court's finding and Completely
disregarded the facts. Counsel provided numerous detailed explanations of the necessity for each
reguest for Continuance and an extensive record regarding the inability fQ effectively represent
Woo

without a Continuance. The prosecution never argued any prejudice or inconvenience %

its witnesses.
further, the Colorado Supreme Court articulated factors courts must Consider and rnafe
a record of when determining whether fo grant a motion fo Continue in which Counsel of
choke is implicated in People v. Drown, 321 P<3d

(o>lo. lOlfj. Woo ^ved on appeal

that the trial Court should have Considered the Drown factors. Citing to People y. Travis,
2.019 CD 15, the Court of Appeals disagreed because Woos Continuance request did not implicate
Counsel of choice. Woo. 'ff II. However} what Constitutes the implication of Counsel of choice
Was not addressed in Travis. People v. Sifuentes. 20)9 COA 106 (Travis decision did not

10.

delineate the particular a'rcvmstances necessary fo invoke the right to Counsel of choice^. The
Sifyerifes Court indicated, however, that Travis makes clear that Brown applies when
Counsel 0f choice has *entered on appearance, -filed & motion for a Continuance, and appeared
before the Court.>, ' jj.
The fact that Counsel represented Woo for several months did nof divest the trial
Court of its duty fo determine whether Woo was entitled to a Continuance under the Brown
factors. In addressing the propriety of a Courts refusal to allow a defendant time for
preparation, this Court has noted that the right to effective assistance of Counsel * is
recognh&d..,. because

of the effect it has on the ability of the accused fo receive a

■fair trial. h CYonic. 4-66 U-S. 64-?. For thaf reason, a judges discretion to deny a
Continuance must be balanced against a defendant's
The denial of the Continuances resulted in
prior

Sixth Amendment rights.
counsel being unprepared during and

to trial. Counsel repeatedly informed ttie Court on the first day of trial that they

were playing Catch-up fo explain numerous instances of jack of preparation■ (Tl\ )]i'zj\%J
PP

IH3) Most significantly, Counsel attempted to present an alternate Suspect defense,

but was precluded from doing So for failing to provide notice of this defense at least ST
days before trial pursuant f0 Celo- Crim- P. Pole 16 (lL)(c). This is nof surprizing since
Counsel firsf received d4a from U-’s electronic devices less than 35 days before trial,
on December 14,2017. (TP 12/22/17, p 6'- IHk) Counsel raised Suspicion upon J-T-'s ex-husband,
!P-T. (TP 1

pp 37-tS), but failed to investigate his whereabouts at the lime ef the

murder as the prosecutions investigator testified ever defense* hearsay objection that D-7.
yJas out-0f-state from what he heard. (JR 2/lJl8>PP 8l'*$ Counsel called the prosecutes
lead defective

res Defenses only witness fo testify thaf nobody had Verified that D-J. was
II.

Out- of - sfafe af the five of TVs death. (TR 2/5/^; p 6T-3~lt)
/\s a result of the numerous delays in obtaining TNA discovery and only
receiving the necessary J)NJ\ favi data, after jury selection, Counsel was oltimfely
unable % present a T^A expert, despite

the crux of counsels case being male DMA

found on TJ. that did not match Woo. (TP i/lt-j 18, p 36: 12-25) Counsel promised the
jury in opening an expert to provide Context for Some of the prosecutions evidence and
to

rebut the prosecution's theory using TVs

internet Searches and computer documents.

(JR l/iVyi?, pp 25:16-25 , 32-3s) However, Having just received discovery from J-7T
electronics on December H, fate and with the holidays preventing Timely forensic analysis
by expert} counsel did not obtain pretrial rulings on the admissibility of the evidence.
All of the rebuttal evidence was precluded or Severely limited at trial. and Counsel did
not Call any expert promised fo tiff jury af opening. (TR ijsjiSj pp 35-W),

SZ-2V)

Various other portions of the record show Counsel's tact of preparedness and
■faille

fo adequately review discovery} Sucf as cross-examination regarding testing items

of evidence <W sloppy police work, followed by the Courts admonition :
raising tire

retesting

if you keep

issuethat's Something that should have been handled before trials

not in the middle of trial." fcFJ p 2S0j T/T )/zbjjg, pF 5IS3)
The

Courts

denial of the requests for Continuance, without affording any weight

fo Woo’s Sixth Amendment fight, denied Woo the effective assistance of Counsel, his
fight to present a defenseand Jiis right To Confront witnesses against him,
requiring the reversal

of his

Conviction.

fZ.

I.

The Court of Appeals •erred in Concluding that the Improper

admission of testimony narrating video - SurVeilhtxe footle as Well as a Timeline
Summary of events allegedly depicted in the video was harmless rind did not.
deprive Woo of his right to a fair trial»
A.

Facts

The prosecution Called investigator Walker as a jay witness to narrate the video Surveillance obtained4 but introduced him in a manner d party would introduce an
expert witness, highlighting Walkers 52 'pears as a police officer, 25 years of which
he spent as an investigator; and 15 years investigating homicides- (TR

pp 53-sf)

The prosecution then moved to admit Exhibit 58% a written timeline of Wrlke/s
opinions of the events on the video shown to the jury. (TR

p 6d:2-Ij)

Counse) objected j arguing that under Colo. ft. Evij • lOOf t the Colorado equivalent of
Fed- /?• Evid. )00f} summries
argumentative,

ate only allowed for Voluminous records, Cannot be

and if Was not appropriate fo emphasize an opinion of a member

of the prosecutions team. (Tft \j3)j}% pp 6o~bj) Counsel also Qfgved Walker was
mof an expect in video-Surveillance ~ watching and as Svchj his opinion Was
ifrelevant and the jury bad the ability to watch the videos and make those
decisions for themSejves. (TR >/31)Id, pp 6l~62) Counsel added that a lay witness
Cannof testify to an ultirwte

issue of fact. (jR

p &2:The Court

ruled : 4 if^ a Compilation Summary. You're entitled fo Cross. ' (jR
Thereafter., the prosecution published Exhibit

p (i2- 23-2‘j)

and provided Copies to

each juror to * fellow along>J while the prosecution played Hie Video-Jurvej llonce.

13.

(TR )l3\/\lt f 631 1-13) Wftjfref opined that the person Seen ;n fl>e Surveillance footle
of the storage unit Was Woo and the vehicle seen was <T-T Sj and gave the Same
Opinion in the summary that he authored, (jR ^31)18, pp 63~6f • Peoples Exhibit 4f?)
jje explained that he knew Woo was in the storage unit from his review of VideoSurveillance from a.

3.

Walgreens nearby. (TR 1)3)118, pp

~66)

JL«W £ /W)/£is

^ Court abuses its discretion if its decision is manifestly unreasonablej
arbitrary, or unfair or if its decision * is based on a misunderstanding or
misapplication of the law- '' People v- Thompson, 2017 CoA 56, IT87. /j reviewing
Court must reverse if the error was f)ot harmless , in that it had *Substantially
influenced the verdict or affected the fairness of the trial proceedings. ° People
V- Robles . 301 R3d 26^ 27f(C«lo. App. 20}j)
/.

The Court of Appeals erred in concluding tl)af Exhibit 4-89 was

properly admitted .
The proponent of the Summary evidence mus f (0 identify the underlying
documents as Voluminous, (2) establish that they are otherwise admissible(3) provide
Opposing Counsel an advance Copy of the summary, and a- reasonable time &nd plo.ce
for examination of the Underlying documents. People v- McDonald, 15 P.3d 188} 7?0
(Colo. App. 2000).
The asserted

Voluminous evidence admitted was Conveniently examined in

Court and Consisted of three exhibits : CO a five and a half minute long video-

If.

iVrvei)|ance clip from Cliffs Upholstery (People's Exhibit ZflJj Cf) a- 23 ~minutes
long clip from Cliffs Upholsfery, of which a. few mmo/es were shown To The Jury
(People's Exhibit W)j and Cf) fiive clips f-fom Walgreens, four of which were only
Seconds long and one appfoXimattly If minutes long (People’s Exhibit 3 If) ■
The Two clips ffofln

Cliff’s Upholstery show mostly its parking lot, beyond

if Two double-lane streets divided by 0. parkway, another fiarkig /of, and beyond that
ef

the fop of the screen a

long distance away, thePublic Storage. One Can barely

See the Car as it pulls in front of the storage unit, and a. moving (slack dot of
a figure less than a millimeter high appears To open a. unit and pull The car
ii)5ide. fPeople’s Exhibit 2flJ The Second video shows the black figure Come out of
The unit and disappear To The fight of the Screen. (Peoples Exhibit 2f2) Although it
is impossible fo ascertain any feature 0f the vehicle or person) such as the type
of Vehicle

of tfPnder, the

Summary identifies the

vehicle as that of J~J.s and

the person as Male . (Peoples Exhibit Wtf)
The Walgreens is Several blocks from fhe

storage and its Video dips do

not show the storage facility but the Walgreens parking lof, a- Two-Way street, and a
Shopping complex across -fhe street. (people's exhibit Jl6) One clip shows the back of
dn

unidentifiable person Walk^ through the parking lot wearing a Jacket. Id, Another

dip shows a sm)J unidentifiable figure at the shopping complex, and one xhowj- a.
person wearing a. white Tshirf walking Toward the Walg/eeos. Id.

Walter's Summary

identifies this person as Woo and Surest That Woo is the person depicted in all

15-

the other videos. {People's Exhibit tty
Despite defend counsel's

CPE 1006 objection, the Court made no finding

Regarding the propriety of admitting the Summary exhibit when
improper opinion about what Walker thought the

the Summary Contained

Videos showed, and the evidence

Summarized clearly Could be Conveniently examined in Court in under 45 minutes- See
Cpp 1006 {"The Contents of Voluminous writings^ recordings, or photographs which Cannot
Conveniently be

examined

Calculation. ")j

f^E

prove the

in Court may he presented in the form of a chart Summary, o'f

1006 ("the proponent may use a Summary, chart, or Calculation to

content of voluminous writings, recordings, or photographs that cannot be

Conveniently examined
Citing to

iV) Court - ’~)

hurray y. Just In Case Bus, lighthouse, LlC. 374 f-3d 443

{Colo- 2016)j fhe Coorf of Appeals
factors %

Consider

pInstead

found that the CPE 10Ob

factors "are not the only

if is the Cases Complexify and the jury's need of an

did to Understand Hie evidence that warrant introducingsummary
Written

timeline Was

Warranted and did just

As an initial matter,

that- "Woo,

exhibits ... [andj the

'Hit)%V.

Murray involved a summary analysis of over ZOO exhibits,

whereas the Summary heft involved

three exhibits.

See also,

United States v- Stephens, lit

f. id 232, 239 (5^ dr- )°t ?ty (where evidence "involved hundreds of exhibits,.,Examination
of the underlying materials would have been inconvenient without the LSummaryj charts'');
United States y. Scales, S?f F.Zd 558, 562 (6* Cr. W<f)CWi% 161 exhibits ...
Comprehension
inconvenient,

of the exhibits Would have been difficult, and Certainly would have been
without

the [summary) charts.

16>

More over,.. Murray did nrif dispe-ose—with the consideration of So loricj as the Case Was Complicated* Murray af 457- W/ir/e M^my emphasized the
Deed to Consider complexity and the jury's need to understand evidence, there Is
noth'mj in the opinion indicating that Courts Clay skip over the -first prong of the
three -prony am lysis Fe^uiriny that the Summarised evidence be voluminous merely
because the Case Is Complex •
the Courf of Appeals Indicated that a summary exhibit should organise the
Summarized evidence In a manner helpful to the jury and free from arguments or
Conclusions* Woo, Cf 10 Quoting Murray af w5f) jf Opined plat the Summary hefe
provided 'neutral descriptions cf wfa>t Was seen Tn each clip

and "helped the jury

Understand what the clips as a. whole showed without artjviny their slgnlficenctWoo, 1TZ).

Tfijr is erroneous, as The summary provided W^keri conclusion that the

person jn the videos was Woo, that the vehicle was J-T-s, and fold the jury what the
prosecufon wanted the jury to see, even opininy that Woo threw a. white hag into the
ffashj when it is impossible to See any of this In the videos. The summary was not
necessary to rid the jury in understandiny the Small amount of video-Surveillance. Exhibit
was essentially the prosecution's theory of the murder storyline, Went directly to
the vepdict reached hy the juryJ and was thus not harmless.
X*

The Court of Appeals erroneously Concluded that Walter's narration

Was harmless.
the Court of Appeals found that h/* I kefs testimony was improper because he
Was in no better position to identify Woo on the Surveillance videos, but Concluded

17.

that the error was harmless because if w'as Consistent with Woos theory of defers*.
Woo . WIT 2f~2S. /ts an initial mafter, the Court of Appeal's finding that Walter's
testimony

Woo Was improper Contradicts its findhj that the written summary

idenldying

given f0 each juror was properly admiTteJ, since Walter likewise identified W/ro
io his Summary. (Peoples Exhibit
there was no evidence placing

Woo in the storage unit at the time shown in the

Videos except Walkers testimony.
W&S extremely poor and it Was

Moreover, the error was not harmless as

Respite the fact that the surveillance video footage
impossible to identify the tiny speck depictedt Walker,

after being introduced as a. highly ■experienced homicide investigator, testified as though
if was a forgone

conclusion that the tiny speck was Woo, going So far as %

claim fhe Tiny Speck Coold be seen leaving fbt storage unit Carrying Something in
his left hand

that he eventually deposited in fhe Walgreens trash Can. (jK >j3lJ$j

pp bf-Uj Peoples Exhibit fgf) If fhe jurors had any reasonable doubt as to
Woo being in the storage unit af tire time of <T-J-s death, Walkers testimony that
tt Was clearjy Woo relieved the jury from Making that Critical determination.
Walkers testimony improperly usurped the province of the jury and directly
affected the Verdict. requiring reversal of Woos Conviction.
III

The Court of Appeals erred in Concluding that Woos constitutional

right against unlawful Search was not violated by the trial courts denial of his
Motion % suppress evidence Seized after the Unlawful entry of his storage uCif.

A-

Facts

On June 30, 2011, Counsel filed a motion to Suppress evidence Seized from

IS.

Woos storage unit,

yving that mo immediate crisis existed % justify warrantless entry

based on exigent Circumstances. (CF, pp 267-213') The prosecution afgued that the entry
was justified by exigent Circumstances or the emergency exception. (CF, pp 303-307}
At the July ) % 2017 hearing on the motion, Detective Jjethe) testified that J.J.'s
Son JJ). %ld her : CO he last Saw JJ. the previous might at T’-Oo ■ (2) he Could not
reach JT- by phone or text in the rooming - (3) JT■ Would leave him in charge of The
younger children while JT went out on dates ; (f) J.J. and Woo recently broke Up; and
C5) JT- was Concerned about Woo striking her and believed Woo posted inappropriate photos
of her on FaceBoot -

(TR TMlljfp 26-30, 23:20-11)

Bethel Confirmed the FaceTook photo incident from a Service call f0 police by JJ.’s
out-of-state relative to check the welfare of J.J.'s children after seeing the Facefiook
photos, and learned that the photos depicted JT- doing drugs. (lR 7}\brj\ij pp 13-30,
33: iT-lf j (F, pp 130-13j) Bethel learned of a second service Call the next day, April
I*, 2016, lay J.J. j and testified that Woo was ©i/fade TVs home "banging on the door". IdOfficer ke/eme/s incident report for this April 18 incident indicates an *unfounded° status
and fhaf JT ^stated the sheriff's office was at her residence the day prior on a
Check the welfare which had been called in by an out of state relative. " (cf, p ) <ji)
kelemen indicated that J}. * stated the (FaceBwf) photograph is mo longer available and
She has no proof fhaf Mr. Woo had m fact posted the image." Id. Further, "when (Woo)
Showed up at the door knocking, (IT) called the sheriffs office because she did not
Want % <dea)J WHi him." Id. lastly, kelemen wrote,''''I asked (jj) if Mr. Woo
made amy threat % her or if she Was afraid of him, (j-j) stated Mr. Woo had not
tma.de any threats and that sloe was mot afraid of him she just did mot want tv
deal

with him ■ 1 Id-

fl.

Bethel

requested dispatch to pwj J-T-'s Two phones Tor location- (jK T^t/n,. p ?o;6 lj)

She Testified that she footid no Sign of struggle at T-Jds home or any indication that
XT- had been taken against her wUh (TR 7/1‘if 11, pp 32-33)
Officer Miller Testified pat he responded p the storage facility on a missing
person case.) and was informed that XT- might he at the location based upon & eell
phone ping . (')R iffIn, pp 37-3S) tie testified that he thought there were some Tire
X^cks p front of Wo vs unit, hot Could not tell how long they had been there and
did not hear Or observe anything

Unusual. (JK l/ifflj pp 3t: 11-25, fi-0:15-17, fir-io-li,

H-b-fl j 50' 5-s') He sniffed for exhaust fumes j but smelled nothing, (jft lj) \j nJ pp
h-0. M-2.0 j 39: ll-lfi J ¥6:3 ~lf) 'Despite the lack of disturbance ot rj^n that anyone
was if) the unit J he testified that the police needed to determine if they * needed %
provide any type of medical

attention - " (lK iJih-Jiij p fl - I?-If) Miller testified

thaf he was uno.ware that Woo had been the subject of

prior call for service

involving XT- when making the decision about whether f0 g0 into the unit, (jl? ijUf/iij p
50:16-2o) tie entered the unit after the police broke the door down with « sledgehammer.
(IK yji+jnj pp dl-fl)
Detective WaTfs Testified that when he responded % the storage facilityj he
learned that Woo had leased a unit there and that J-T-'s phone was located within
U meters of the facility- (iK 7)\f]\7, f? 51-53, 58-i) He believed Woo rented The
Unit on April jo for vehicle

storage , and noticed fire Tracts in front of the unit-

[n 7/PdlL PP 5V-3-7, 55:13-16 , 5VWM7, C\:l-vf) Despite other officers claiming
they smelled a Sweet odor from the unit, Watts testified that he did nof Smell any
odor, (tfi ijifjn, pp Sf'-il-lO, 5bWf-20t 57:if~)i) He called 0vf to inquire if

2.0.

anyone Was inside the unit, but heard no response. (jft 7/1^7, p 57:

Wafts

did not testify that he was aware of any prior Sepvice Call in wiring Woo and J-7 before
entering the unit.
The prosecution argued that the warrantless entry was made to ascertain whether
the police could potentially render assistance To «■ victim in need of medical attention.
(jR 7//V/I7, pp bt* 13-lb; 6S-.5-Z)
The court found that the prosecution met its burden of nof having a formal
warrant -executed by a courtj but operating Under the exigent Circumstance -exception to
the warrant requirement.

f 70: J3 ~jC) In Support, the Court found that law

enforcement was ' appraised of the fact that fir. Woo had been dating the decedent ■
that she was fearful

0f him 5 that there had been previous calls for service to

jaw enforcement about fjf. Woo stalfing her, and they took the necessary step % be
cdole % determine if she was in immediate danger or in a life-threatening situation.
(tK 'j/lt/ll; pp 69'IS-70 :5) Further, the Court found that "Itlhe piny located was /'n
•exact proxitmfy of The storage unit, and that is the exception fa the warrant requirement;
>f there is an emergency threatening the life or Safety of another. And clearly we had
thaf )Y) this situation -

flF 7/^7, p 70:6S') In response to counsel's question as to

whether the Court Was basing its decision on any indication or report of past violencej
the Court responded; \ri]0j IJm basing it upon the testimony Today, fhaf fllj Was
fearful of (\7ou) because of the stalking that was going on and the Call for service
attributable % that. " Ctt i^/n, ? 71:1-3J

3.

l.aw & Analysis

Ar\ ultimate Conclusion of Constitutional jaw that is inconsistent with or
21.

unsupported by evidentiary findings, as well as the Courts erroneous legal standard %
the -pacts of the Case, are subject to de novo review and Correction by a. reviewing
Court

People y. Pappan ,

P-3d 173, Tib fCofo. lOlf).

The Fourth Amendment of The United States Constitution and article TL. section ~7
of The Colorado Constitution proscribe all unreasonable Searches and Seizures. A
warrantless search is prim a -facia un constitutional unless it is justified by an establishsJ
exception % the warrant requirement - People v- Harper. fOl P.ld 2f2j %5S (c*)o. 1995).
The prosecution has the burden of overcoming this presumption by establishing that
the Warrantless search is Supported by probable cause and is justified under one of
the exceptions % the warrant requirement, people y. Ciafcia, 752 P2d 570j SS)
(Colo- 1°!$)

One of these exceptions is the exigent Circumstance exception. People V-

Kluh-S^an , °l%0 P.2d 52% 53 f falo- 1999). Exigent circumstances eMsf when there
vV

is probable Cause for the search and there }s a colorable claim 0f emergency threatening
the life or Safety of another.11 Id. Any evidence obtained pursuant fo an
Unconstitutional search or Seizure, as well as the fruits of the illegally seized
evidence j is subject % the exclusionary rule. Wong iun y. United States, 311

U-*. flu fzf-ss (mi) ■ People y. Lewis, 97S p.2d 160, )70 fa)o. mj).
As an initial matter, the court's basis for denying Weds motion to suppress
relies on the Clearly erroneous fact that J-T Was fearful of Woo. (jP ijitfl, pp
76>; |-Z , 7): (-3) Nowhere m the prosecution's responsive pleading, testimonies from all
three witnesses (Bethel , Miller, and Walts) at the hearing, prior proceedings. Or the
entire record does the prosecution or any other person allege that J-T- was fearful
2X.

of Woo. 1his Was entirely the Court’s erroneous assumption and is in direct
Contradiction to the only other reference to JVs -fear factor in the entire record:
Kelemens April 18, 20)b incident report indicating that J7 told him "she was not afraid

of (Woo)", (ct p m)
The Court also erroneously attributed the April II and April 18, 2<5/6 Service calls
to Woo stalkiiig J- T- (lK 7/1^17, pp ^’-25-70-5) The April 17 service (all Was made
by J-fs

out-of-state relative against T7-, not Woo. &F, p flj) Officer kelemens report

indicates that the totality of what occurred on April 18 Was that Woo knocked on TT's
door and Walked away when JT did not respond. Id. kelemens report indicates that J-Tdid not report stalking, and thaf JTs belief that Woo posted inappropriate photos of her
On FaceBook was unfounded. Id. There is no record that Bethel passed any of the
information she gathered, Such as the Service Calls, to the officers who made the illegal
entryj other than that J-T-’s phone pinged to the storage Vicinity and Woo was a
person of interest.
The courts finding that the location of TVs phone in exact proximaty of the
storage unit' (lR 7/1^17, p 70'-6'%) provided the exception % The Warrant requirement was erroneous
Since the phone Was merely located wifhm a

meter radius of the storage facility (lR

l/lfM, p 5 £ - 7); extending beyond the facilily to nearby businesses and parking lots. Further/
the location of a. phone does not necessarily mean the owner is with the phone, and
Certainly does not mean the owner is in danger Or in need of medical aid.
The Court of Appeals found that exigent Circumstances existed because J*7Was missing and her oldest Son feared for her Safety. Woo had been stalking her.

23.

she was afraid of Woo, and police had located her Cell phone at Woo's storage
unit-" Woo, 7T 30. This Conclusion again merely echoed the Trial Courts errorsj as
Only the -first of the four factors relied upon is folly accurate. The Calls for Service
and resulting reports did Hot indicate stalking^ the claim that 'ST- Was afraid of Woo
IS entirely false and Unsubstantiated, and the police never pinpointed JSs phone to WWs
Unit prior to entry. Watts' testimony that the phone was located Within

meters of

the storage facility (fR 7jfrill, p 58'i) implied a radius half the length of a.
foothal) field.
Jo determine whether the prosecution has established exigent circumstancej Courts
must examine the totality of the Circumstances as they would have appeared To a
prudent and trained police officer at The time the decision To Conduct a warrantless
entry was made- People V- Hebert.

P-3d t73, fHofColo. 2002) The exception To

the warrant requirement does not give officers carte blanch To make warrantless entry
whenever there is theoretical possibility another's )ife or Safety fs in danger.
People y. Smiih, b-0 PJd 1287, jllo (Colo. 2001) The Totality of the circumstances
analysis places particular importance On the fact that Suspicion alone, even if
reasonable, does not provide & legal basis upon which an officer may enter a
residence and Conduct searches and Seizure therein. Lewis at I6T
The Totality of the circumstances at the Time of entry indicates that there
Was no exigency So Immediate as To render obtaining a Warrant problematic. The
testimonies of Miller and Watts indicate that they observed nothing at the storage
Unit prior % entry To Suggest an emergency Jn progress. They heardj smelled, and

2^

Saw nothing other than foe Tracts * which was not unusual for a. unit Rented for the
purpose of vehicle storage. CTK T/lv/ilj p St'Jt'lb) They -were unaware of any prior
Ter vice call at the foie of entry; Calls thafj even if know, indicated nothing more
than that Woo knocked on tt-fos door on April H and left when she did not respondj
and that JT- suspected hut offered no proof That W°o pasted inappropriate photos of
her on FaceBook. (dFj pf

fill fhaf officers knew at the Tim of entry was 'That

it-T- had been missing for about three hoursJ Woo was a person of interest according
to UT-'s Son, and one of J-t’s two phones ~not her official iPhone but a recently
purchased frocFone Used to avoid detection (tk 7/l'rjl7j p 6%: )7-2q) —

located

within Tf meters o"f a storage facility where Woo had RecenPy rented a unit. The
totality erf The circumstances demonstrates that the police had no reasonable basis to
believe that an immediate crisis existed

requiring the Renderinj of aid.

The police Cannot use the possibility of an emergency to avoid the Warrant
requirement.

People y. Allison, 86 T3d T2) (Colo. zooif) (finding there Was a mere possibility

that the third party may have been in the residence j hut the circumstances did not rise
% the Jeve) of cm immediate Crisis^) I here was merely a theoretic^. possibility and
Suspicion that J-t/s phone, and Therefore J-T., might he in the storage unit.
piothinj indicated that JT was m peed of medical aid, as Miller and the
prosecufon provided rxs the basis for the forced entry. (jR tjlfolj pp h-l: 13-if,

: 13-/6)

Officers clearly forced entry to Conduct an investigation of a. missing person, not in
response to distress or to fender medical aid- Any claim as to the Rendering of

25.

medical «5.s/it<5Dfe was merely an offer-thought % circumvent The warrant fe^uirmentOfficers' Subjective motivedj'on is Irrelevant in evalvoting if fjjefir actions were VeasonaUe s~
Sricjham City V- Stuart, -5f7 U-5. 39£,
reasonably Come hied t1)af a

(2000). Any do^f whether officers

mnflesj search was justified most be resolved in fWo7

of the {defendant whose property Was Searched/ People v■ Tarsen. 713 p.ij 907,9a
\v

(Cdo. I til) Moreover, [{jf The ordinal entry w°s mf lawful j a Svbsey uenf search
under a warrant based on evidence Seen during the Illegal search was also
\jnconsfifufional • ' Id. See also People V- Hogan . 6f9 P Id dib (Cdo. Icf$2)( the
ZuivSoruiry rule not only bars the admission of evidence Illegally acquired but
also prohibits the government from utilizing

evidence which is the direct fruit »r

product of the initial Illegality.]
Since the Circumstances immediately prior To entry do Oof demonstrate cl
Colorable claim of an emergency threatening the Safely of another or an imminent
Crisis^ the prosecution did not meet its burden and the trial Court and Court of
Appeals erred in finding that an emergency Situation existed. As Such , Woos
CoMcton and The denial of Woo’s motion % Suppress should be reversed, and <U\J
evidence unconstitutionally Seiled as a. feSult of the illegal entry should be Suppressed
under ft>e exclusionary rule.

26.

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

ja/nes Woo
Date:

August I5j 20ZI

27-

